 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Physical And Occupational Therapy in Nursing Homes
         Cost of Improper Billings to Medicare




                           JUNE GIBBS BROWN
                            Inspector General

                                AUGUST 1999
                               OEI-09-97-00122
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Deborah Harvey, Project Leader                           Susan Burbach, Program Specialist
Robert Gibbons, Program Analyst                          Jennifer Antico, Program Specialist
Carrie Lozano, Program Analyst                           Stuart Wright, Program Specialist
Lori Stickel, Program Analyst                            Barbara Tedesco, Statistician



To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
Reports are also available on the World Wide Web at our home page address:

                                   http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                           SUMMARY

PURPOSE

     To determine how much Medicare paid for improperly billed and undocumented physical and
     occupational therapy in skilled nursing facilities.

BACKGROUND

     All Medicare-certified skilled nursing facilities are required to assess each patient’s status and

     needs, including the medical necessity for physical and occupational therapy. Medicare

     coverage guidelines state that therapy must be reasonable, necessary, specific, and effective

     treatment for the patient’s condition.


     The Medicare charges for physical and occupational therapy to patients in skilled nursing

     facilities have increased over the past few years. The 1997 Medicare charges for physical and

     occupational therapy were approximately $7.9 billion, an increase of almost 18 percent over

     the 1996 charges of approximately $6.7 billion.


     The Health Care Financing Administration, the Federal agency that administers the Medicare

     program, implemented salary equivalency guidelines for physical therapy in 1975 to ensure that

     the agency did not reimburse excessive hourly contracted amounts. While skilled nursing

     facilities may pay a therapy contractor any amount for physical therapy, they are required to

     apply the salary equivalency guidelines to those contracted amounts when they submit their

     cost reports. Occupational therapy was not subjected to salary equivalency guidelines until

     April 1998. Before that time, skilled nursing facilities routinely marked up charges from their

     occupational therapy contractors, and Medicare reimbursement included the mark-up.


     We conducted on-site medical review at a random sample of 24 skilled nursing facilities

     nationwide. Several teams of physical and occupational therapists reviewed the 

     March 1998 medical records of a national random sample of 218 Medicare patients. The

     medical reviewers determined the medical necessity of the therapy provided to the sampled

     patients before the implementation of the prospective payment system for skilled nursing

     facilities which began on July 1, 1998 and the cap on Part B therapy which began on 

     January 1, 1999. Assuming that March 1998 is a typical month, we projected Medicare

     reimbursement for medically unnecessary and undocumented therapy to the 12-month period

     ending June 30, 1998.


     In a companion report entitled Physical and Occupational Therapy in Nursing Homes:

     Quality of Care and Medical Necessity for Medicare Patients (OEI-09-97-00121), we

     explained the reasons and extent of improperly billed therapy. In that report, we noted that 



Cost of Improperly Billed Physical/Occupational Therapy   1                                 OEI-09-97-00122
     13 percent of therapy was improperly billed, and an additional 4 percent was not documented
     in the patients’ medical records.

FINDINGS

Medicare reimbursed skilled nursing facilities almost $1 billion for improperly
billed physical and occupational therapy

     Medicare reimbursed skilled nursing facilities for improperly billed therapy primarily because
     the therapy was not medically necessary and therapy was provided by staff who did not have
     the appropriate skill for the patient’s medical condition.

Medicare reimbursed skilled nursing facilities almost $331 million for
undocumented physical and occupational therapy

     The time documented for therapy in the therapy ledgers and therapy charts in patients’ medical
     records often did not match the time billed to Medicare for therapy. Also, some therapy charts
     in patients’ records did not include the actual time therapists and assistants spent with patients.
     In fact, some SNFs had such poor documentation that it was virtually impossible to verify the
     amount of therapy that patients received within a week.

Skilled nursing facility mark-up of occupational therapy exceeded $342 million

     Because salary equivalency guidelines had not been implemented for occupational therapy until
     April 1998, Medicare paid skilled nursing facilities as much as 86 percent more than their
     contractors charged them for each unit of therapy. The mark-up between contractor invoices
     and skilled nursing facilities’ reimbursement exceeded $342 million.

CONCLUSION AND RECOMMENDATION

     Our findings concerning unnecessary and undocumented therapy, as well as the mark-ups on
     occupational therapy, were not identified prior to the implementation of the prospective
     payment system. This has resulted in inflated base year costs upon which both the Federal and
     the facility-specific rates were based. Therefore, should any consideration be given to
     modifying the prospective payment system, we believe that the inappropriate costs identified in
     this report should be considered.

     In addition to implications for modifying the prospective payment system, our findings have
     medical necessity implications. Under the new payment system, patients may continue to
     receive unnecessary (and harmful) therapy and be placed in upcoded Resource Utilization
     Groups. An additional financial incentive may be to underutilize therapy and deprive patients
     of needed rehabilitation. Similarly, medical appropriateness will continue to be an issue under


Cost of Improperly Billed Physical/Occupational Therapy   2                                OEI-09-97-00122
     Part B with possible overutilization for patients who do not need therapy and underutilization
     for patients whose therapy needs exceed the cap. Therefore, we recommend:

          HCFA should adequately fund Medicare contractors to perform medical reviews
          of therapy.

AGENCY RESPONSE

     We received comments on the draft report from the Health Care Financing Administration.
     The agency concurred with the report’s conclusions. The Health Care Financing
     Administration believes that the recently implemented prospective payment system for skilled
     nursing facilities has helped to eliminate some incentives to provide inappropriate or
     unnecessary therapy. The agency will continue to aggressively monitor the potential impact on
     the access and quality of care of therapy for Medicare beneficiaries.

     The full text of the Health Care Financing Administration’s comments appears in appendix C.




Cost of Improperly Billed Physical/Occupational Therapy   3                             OEI-09-97-00122
                           TABLE                       OF              CONTENTS
                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     Cost of improperly billed therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     Cost of undocumented therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     SNF mark-up of occupational therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


CONCLUSION AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


     A: Calculation of Average Therapy Reimbursement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


     B: Confidence Intervals for Selected Calculations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


     C: Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





Cost of Improperly Billed Physical/Occupational Therapy            4                                                   OEI-09-97-00122
                                       INTRODUCTION

PURPOSE

     To determine how much Medicare paid for improperly billed and undocumented physical and
     occupational therapy in skilled nursing facilities.

BACKGROUND

Medicare Coverage and Reimbursement of Physical and Occupational Therapy

     Medicare coverage guidelines state that therapy must be reasonable, necessary, specific, and
     effective treatment for the patient’s condition. All Medicare-certified skilled nursing facilities
     (SNF) are required to assess each patient’s status and needs, including the need for physical
     and occupational therapy. The Health Care Financing Administration (HCFA), the Federal
     agency that administers the Medicare program, requires that therapy be prescribed in a written
     treatment plan that describes the specific therapeutic interventions, the frequency of visits, and
     the duration of therapy. Therapy must be ordered by a physician and require the skills of a
     licensed or certified therapist. While therapy generally is expected to result in the full or partial
     restoration of function, this outcome is not required by Medicare.

     The Medicare program provides coverage of therapy services under both Parts A and B for
     SNF patients. Patients are eligible for Part A benefits if they are transferred to a SNF after a
     minimum 3-day covered stay in an acute care hospital. Part B covers services for SNF
     patients who have exhausted their Part A benefits or did not have a qualifying hospital stay.

     In 1997, SNF Medicare charges for physical and occupational therapy were approximately
     $7.9 billion, an increase of almost 18 percent over the 1996 charges of approximately
     $6.7 billion. As shown in the chart below, most therapy charges were for Part A therapy rather
     than for Part B therapy.

                 Part A Charges Comprise the Majority of Medicare Therapy Claims


                                  Medicare                1997 SNF Therapy Charges
                                  Coverage                 Physical      Occupational
                                     Part A               $3.3 billion    $2.9 billion
                                     Part B               $900 million   $800 million
                                        Source: Health Care Financing Administration, 1998




Cost of Improperly Billed Physical/Occupational Therapy         5                            OEI-09-97-00122
     Medicare does not pay for physical and occupational therapy when:

     <    the therapy is performed repetitively to maintain a level of function,
     <    the patient’s restoration potential is insignificant in relation to the therapy required to
          achieve such potential,
     <    it has been determined that the treatment goals will not materialize, and
     <    the therapy performed is considered to be a general exercise program.

     In September 1996, HCFA clarified its payment policy that Medicare will pay only for skilled
     therapy that involves direct patient care. Medicare will not pay for indirect services such as
     medical record documentation, care planning, and telephone calls except when they are
     aggregated with other overhead costs and are included in the cost report that each SNF must
     file with its Medicare fiscal intermediary.

How SNFs Document and Bill for Therapy

     Prior to July 1, 1998, skilled therapy was billed in a fixed-time increment called a “unit.” One
     unit equaled 15 minutes of therapy. Each therapy session would be composed of various
     therapeutic interventions or activities that the therapist or assistant completed with a patient.
     For example, if a patient completed 45 minutes of therapy in one session, the SNF billed for
     three units of therapy. If the same patient received an hour of therapy in the morning and
     another hour in the afternoon, the SNF billed four units in each session for a total of eight units
     of therapy for the day.

     Therapists document their services in various ways, including departmental ledgers, which are
     maintained in the therapy department, and therapy charts (often called grids), which are
     included in each patient’s medical record. Ledgers generally are weekly or monthly summaries
     of therapy rendered to all patients, usually separated by the type of reimbursement that the
     SNF receives for each patient. Therapy grids often duplicate the ledger information with
     checked boxes for each intervention, the total units, and the therapist’s name. If the patient
     received therapy twice in one day, the interventions are checked on the “morning” and
     “afternoon” grids with units listed at the end of the day.

Types of SNF Therapy Contracts

     Most therapy for SNF patients is provided by therapists who are employees of the SNF or
     therapists who work for independent companies that have contracts, or are “under
     arrangement,” with SNFs. The SNFs may provide some therapy directly and some under
     arrangement. The SNFs submit Medicare claims on behalf of their staff or their contractors.
     Fiscal intermediaries pay SNFs for therapy throughout the year based on an interim rate which
     is subject to revision after the annual cost report is finalized.




Cost of Improperly Billed Physical/Occupational Therapy   6                                   OEI-09-97-00122
Medicare Salary Equivalency Guidelines

     The costs for physical and occupational therapy billed by SNFs are subjected to hourly salary

     equivalency guidelines. Salary equivalency is the prevailing hourly salary rate1 plus the

     standard fringe benefit and expense factor. This rate includes an adjustment for geographical

     areas and is updated periodically.2 The HCFA implemented salary equivalency guidelines to

     ensure that it did not reimburse SNFs for excessive contracted therapy costs. While SNFs may

     charge any amounts that are considered to be reasonably related to therapy costs, fiscal

     intermediaries apply salary equivalency guidelines to therapy costs claimed on SNF cost

     reports. The HCFA implemented salary equivalency guidelines for physical therapy in 1975. 

     Salary equivalency guidelines for occupational therapy were not implemented until 

     April 1998, i.e., 23 years later.


Legislation for SNF Therapy

     The Balanced Budget Act of 1997 significantly changed how SNFs are reimbursed for all
     services, including physical and occupational therapy. All SNF cost reports filed after
     July 1, 1998 are subjected to a prospective payment system. Under this system, SNFs receive
     a facility-specific per diem rate, which includes therapy, for each patient who is in a Part A
     covered stay.3 The facility-specific per diem is based on the adjudicated cost report for fiscal
     year 1995, and the SNF will receive a blended rate over a 3-year transition period that blends a
     portion of the facility-specific per diem and the Federal per diem rate. The legislation also
     included a $1,500 annual cap for Medicare Part B patients, whether or not they reside in SNFs.
     Occupational therapy is limited to $1,500 annually, while physical therapy and speech language
     pathology share the same $1,500 annual cap. The cap was effective January 1, 1999.

METHODOLOGY

Sampled SNF Selection

     From the Medicare Common Working File, we extracted all March 1998 physical and
     occupational therapy claims (both Parts A and B) submitted by SNFs to fiscal intermediaries
     for payment. We limited the extract to SNFs in the continental United States. We reviewed
     therapy rendered to patients before the Health Care Financing Administration implemented the
     SNF prospective payment system on July 1, 1998. We purposely selected claims submitted



           1
          Prevailing salary is the hourly salary rate based on the 75th percentile of salary ranges paid by
 therapy companies in the same geographical area, by type of therapy, to full-time therapists.
           2
            42 Code of Federal Regulations, Part 413, Section 413.106.
           3
        Health Care Financing Administration, Program Memorandum for Intermediaries A-97-17,
 December 1997.

Cost of Improperly Billed Physical/Occupational Therapy   7                                     OEI-09-97-00122
     before July 1, 1998 to maintain consistency in SNF and fiscal intermediary policies and
     procedures for the 12 months prior to the change in payment systems.

     We stratified the SNFs into four strata by (1) regions of the United States and (2) the total
     physical and occupational therapy charges for March 1998. Within each stratum, we grouped
     the SNFs into clusters such that the SNFs were in the same geographic area and the sum of
     physical and occupational therapy charges per cluster was fairly constant.

     We then randomly selected two SNF clusters per stratum. Within each SNF cluster, we
     randomly selected 3 SNFs, resulting in a total sample of 24 SNFs. Within each SNF, we
     randomly selected 10 patients who received physical and/or occupational therapy during March
     1998. If a SNF had fewer than 10 patients who received therapy in that month, we reviewed
     all of them.

     Calculations for the confidence intervals account for all levels of clustering and stratification.
     The 95 percent confidence intervals for the statistics in this report are listed in appendix B.

On-Site Medical Review

     We conducted on-site medical review at 24 SNFs for 218 sampled patients who received
     physical and occupational therapy in March 1998. The review period was before HCFA
     implemented the SNF prospective payment system and salary equivalency guidelines for
     occupational therapy. While on-site, we:

      < reviewed the medical records to determine if each therapy session was medically necessary,
        unnecessary, or undocumented;
      < reviewed therapy ledgers that documented therapeutic interventions and time spent with
        patients;
      < requested copies of the Medicare bills for sampled patients;
      < obtained copies of contracts between SNFs and therapy contractors that were in effect in
        March 1998; and
      < obtained the Medicare cost-to-charge ratios that fiscal intermediaries apply to physical and
        occupational therapy charges.

     The medical review was conducted by several teams of licensed or certified physical and
     occupational therapists. The cost estimates in this report are based on the non-statistical
     projections from March 1998 which we extrapolated to a 12-month period ending
     June 30, 1998, based on the assumption that March 1998 is a typical month and represents
     31/365 of a year. See appendix B for more details.

     This report is one in a series of reports on physical and occupational therapy for Medicare SNF
     patients. A companion report, Physical and Occupational Therapy in Medicare Nursing
     Facilities: Quality of Care and Medical Necessity for Medicare Patients (OEI-09-97-00121),
     details the extent and reasons for improperly billed and undocumented therapy. In that report,


Cost of Improperly Billed Physical/Occupational Therapy   8                                 OEI-09-97-00122
     we noted that 13 percent of therapy was billed improperly, and an additional 4 percent was not
     documented in the patients’ medical records.

     Our review was conducted in accordance with the Quality Standards for Inspections issued by
     the President’s Council on Integrity and Efficiency.




Cost of Improperly Billed Physical/Occupational Therapy   9                            OEI-09-97-00122
                                                 FINDINGS

Medicare reimbursed SNFs almost $1 billion for improperly
billed physical and occupational therapy
     Assuming that March 1998 is a representative month of the 12-month period ending 

     June 30, 1998, Medicare reimbursed SNFs approximately $955 million for 49 million units of

     improperly billed physical and occupational therapy.4 Of the $955 million for improperly billed

     therapy, approximately $882 million was for Part A therapy and $74 million for Part B

     therapy.5 Medicare SNF patients received a total of 292 million units of therapy. The

     following table describes the cost to Medicare and the major reasons why the therapy was

     billed improperly:


                                                                      Cost of Unnecessary Units
                             Major Reasons                                    by Therapy
                                                                       Physical           Occupational
        Patients received medically unnecessary therapy              $360 million          $451 million
        Patients received therapy from staff with
                                                                     $100 million          $ 45 million
        inappropriate skill
                                                          Source: Office of Evaluation and Inspections, 1999

SNFs received approximately $811 million for medically unnecessary therapy

     Of the $955 million of improperly billed therapy, approximately 85 percent was billed for
     therapy that was not medically necessary. Therapy was not necessary because, among other
     reasons, therapy was not based on the patient’s medical condition and some SNFs billed
     medical record documentation as skilled therapy time.

     The SNFs routinely received payment for therapy that was not tailored to their patients’
     medical needs. This included situations where the patients already had achieved the treatment
     goals, the treatment goals were unattainable, therapy was not discontinued at the appropriate
     time, and therapists billed routine maintenance services as skilled therapy. Several patients
     received therapy “B.I.D.,” or twice a day, regardless of medical necessity. The B.I.D. pattern
     was a standard practice at several SNFs, especially if the therapy contractor was part of a large


           4
           This reimbursement was the amount SNFs charged on the cost reports multiplied by the
 facility-specific cost-to-charge ratio for physical or occupational therapy.
           5
            The totals do not total $955 million due to rounding.

Cost of Improperly Billed Physical/Occupational Therapy   10                                        OEI-09-97-00122
     national therapy company rather than a local therapy contractor or rather than therapists
     employed by the SNF.

     A few SNFs billed the documentation of medical records as if it were a reimbursable skilled
     service. The therapy records at one sampled SNF routinely included checked boxes on
     patients’ therapy grids for documentation completed during therapy sessions. In another
     facility, an assistant charged Medicare one unit (15 minutes) as skilled therapy to document
     that the patient had refused therapy one afternoon. In fact, the patient continued to refuse
     therapy for 21 additional sessions, and the SNF continued to charge Medicare one unit for
     documentation each time the patient refused therapy.

SNFs received approximately $145 million for therapy provided by staff with
inappropriate skill

     Medicare reimbursed SNFs for improperly billed physical and occupational therapy provided
     by staff who did not have the appropriate skill for the patient’s medical condition. Examples
     include (1) occupational therapists providing therapy that physical therapists should have
     provided, (2) therapists providing therapy that assistants should have provided, and (3) both
     physical therapist assistants and occupational therapy assistants working beyond the scope of
     their State licenses.

Nationally, Medicare reimbursed SNFs almost $331 million for
undocumented physical and occupational therapy
     Approximately 13 million units of therapy were deemed undocumented when (1) the number of
     units on the therapy ledgers did not match the units billed to Medicare, (2) necessity of therapy
     was not documented in the patients’ medical records, and (3) medical reviewers could not
     determine who provided therapy to the patients.

     Some SNFs had such poor documentation that it was virtually impossible to verify the total
     units of therapy that patients received within a week. Therapy ledgers and grids often did not
     include the number of units spent with patients in individual sessions. The grids had lists of
     interventions with checked boxes only. Because of this, medical reviewers could not determine
     the medical necessity of the sessions that (1) had identical interventions and checked boxes, (2)
     had wide variations in the total units for therapy on the Medicare bill, and (3) lacked narrative
     explanations of changes in the patient’s treatment to justify the variation in units. Also, some
     ledgers were missing or were not available due to changes in SNF ownership.

     Medical reviewers could not use some ledgers or therapy grids to determine who provided
     therapy because the names, initials, and/or certification levels were missing. These data are
     critical in determining if patients had received treatment from staff with skills appropriate to
     their medical needs.




Cost of Improperly Billed Physical/Occupational Therapy   11                               OEI-09-97-00122
SNF mark-up for occupational therapy exceeded $342 million
     Because salary equivalency guidelines had not been implemented for occupational therapy until
     April 1998, Medicare paid SNFs as much as 86 percent more than their contractors charged
     them for each unit of therapy. The average reimbursement for one unit (15 minutes) of
     occupational therapy was $22.33 (as shown in appendix A) with a range of slightly less than $3
     to almost $39. The practice of marking-up contractor costs is routine, but the percentage of
     mark-up varies from as little as 4 percent to as much as 86 percent. This, at least in part,
     explains the extreme variations in reimbursement per unit.

     Under the new prospective payment system, SNFs are reimbursed based on per diem rates for
     all costs related to SNF services under Part A. The HCFA calculated the per diem rates from
     aggregated national data including allowable costs from SNF cost reports in fiscal year 1995,
     patient case mix, and geographic variation in wages. Under the SNF prospective payment
     system, SNFs are paid based on the patient’s assessment upon admission and classification into
     one of the Resource Utilization Groups. Since salary equivalency guidelines for occupational
     therapy did not apply to costs included on the fiscal year 1995 cost reports, SNF mark-up for
     occupational therapy is included in the Federal per diem rates. The mark-up between
     occupational therapy contractor invoices and SNFs’ reimbursement for therapy claimed on the
     Medicare cost reports exceeded $342 million for cost report periods ending prior to April 1,
     1998 (assuming March 1998 is a representative month of the 12-month period ending March
     31, 1998).6




           6
            We excluded the therapy units that were unnecessary and undocumented, prior to calculating the
 amount Medicare reimbursed SNFs for the mark-up.

Cost of Improperly Billed Physical/Occupational Therapy   12                                  OEI-09-97-00122
    CONCLUSION AND RECOMMENDATION

     As noted in our methodology, the period we reviewed was prior to the implementation of the
     SNF prospective payment system, the salary equivalency guidelines for occupational therapy,
     and the cap for Part B therapy. Our findings concerning the cost of unnecessary and
     undocumented therapy, as well as the mark-ups on occupational therapy, were not identified
     prior to the implementation of the prospective payment system. This has resulted in inflated
     base year costs upon which both the Federal and the facility-specific rates were based.
     Therefore, should any consideration be given to modifying Federal Rates or re-basing the
     prospective payment system, we believe that the inappropriate costs identified in this report
     should be considered.

     In addition to the implications for modifying rates under the prospective payment system, our
     findings have implications for the need to assure that therapy services are medically
     appropriate. Under the new payment system, patients may continue to receive unnecessary
     (and potentially harmful) therapy and be placed in upcoded Resource Utilization Groups. An
     additional financial incentive may be for facilities to underutilize therapy services which would
     deprive patients of needed rehabilitation services. Similarly, medical appropriateness will
     continue to be an issue under Part B with possible overutilization for patients who do not need
     therapy and underutilization for patients whose therapy needs exceed the cap. Therefore, we
     recommend:

          HCFA should adequately fund Medicare contractors to perform medical reviews of
          therapy.

AGENCY RESPONSE

     We received comments on the draft report from the Health Care Financing Administration.
     The agency concurred with the report’s conclusions. The Health Care Financing
     Administration believes that the recently implemented prospective payment system for skilled
     nursing facilities has helped to eliminate some incentives to provide inappropriate or
     unnecessary therapy. The agency will continue to aggressively monitor the potential impact on
     the access and quality of care of therapy for Medicare beneficiaries.

     The full text of the Health Care Financing Administration’s comments appears in appendix C.




Cost of Improperly Billed Physical/Occupational Therapy   13                              OEI-09-97-00122
                                                                                               APPENDIX A

                              Average Therapy Reimbursement

     The following table shows the average (mean) reimbursement per 15-minute therapy
     intervention. While the average reimbursement for occupational therapy appears to be higher
     than for physical therapy, this difference, based on a T-test, is not statistically significant at the
     95 percent (or even 90 percent) confidence level. The statistics in this table are limited to
     therapy activities. We excluded both therapy evaluations,7 which sometimes were reimbursed
     at a higher rate, and therapy reevaluations,8 which sometimes were reimbursed at a lower rate.


               REIMBURSEMENT PER 15-MINUTE THERAPY INTERVENTION


                                      Average (mean) reimbursement                95 percent confidence interval
         Therapy Type
                                     per 15-minute therapy intervention               Lower              Upper
    Physical therapy                                      $16.74                      $13.95             $19.53
    Occupational therapy                                  $22.33                      $14.72             $29.93
                                                                    Source: Office of Evaluation and Inspections, 1999




           7
           An initial examination when the therapist gathers patient data and makes clinical judgments to
 establish the treatment plan. [Source: American Physical Therapy Association’s Guide to Physical
 Therapist Practice (1998)]
           8
          A follow-up examination when the therapist updates the patient’s status because of new clinical
 indications, patient’s failure to respond to planned therapeutic interventions, or patient’s failure to progress
 from baseline data. [Source: American Physical Therapy Association’s Guide to Physical Therapist
 Practice (1998)]

Cost of Improperly Billed Physical/Occupational Therapy        14                                         OEI-09-97-00122
                                                                                   APPENDIX B

                     Confidence Intervals for Selected Statistics

      The following tables show the point estimates and 95 percent confidence intervals for selected
      statistics, in the order that they appear in the report. These calculations account for all levels
      of clustering and stratification as described in the methodology.

                                                                      Point                95 Percent
                                  Statistic
                                                                     Estimate          Confidence Interval
Amount Medicare reimbursed SNFs for physical and
                                                                    $490 million    $375 million - $606 million
occupational therapy that was provided during March 1998
Amount Medicare reimbursed SNFs for physical and
occupational therapy that was provided for a 12-month period        $5.8 billion                  **
ending June 30, 1998
Number of physical and occupational therapy units provided
                                                                     25 million        16 million - 34 million
Medicare SNF patients during March 1998
Number of physical and occupational therapy units provided
Medicare SNF patients for a 12-month period ending                  292 million                   **
June 30, 1998
Amount Medicare reimbursed SNFs for improperly billed
physical and occupational therapy that was provided during          $81 million      $44 million - $119 million
March 1998
Amount Medicare reimbursed SNFs for improperly billed
physical and occupational therapy that was provided for a           $955 million                  **
12-month period ending June 30, 1998
Number of improperly billed physical and occupational
therapy units provided Medicare SNF patients during                  4.2 million      2.3 million - 6.0 million
March 1998
Number of improperly billed physical and occupational
therapy units provided Medicare SNF patients for a                   49 million                   **
12-month period ending June 30, 1998
Number of undocumented units provided Medicare SNF
                                                                     1.1 million      0.7 million - 1.5 million
patients during March 1998
Number of undocumented units provided Medicare SNF
                                                                     13 million                   **
patients for a 12-month period ending June 30, 1998


 Cost of Improperly Billed Physical/Occupational Therapy   15                               OEI-09-97-00122
                                                                                APPENDIX B

                                                                   Point            95 Percent Confidence
                                   Statistic
                                                                  Estimate                 Interval
 Amount Medicare reimbursed SNFs for undocumented
 physical and occupational therapy that was provided during      $28 million       $19 million - $37 million
 March 1998
 Amount Medicare reimbursed SNFs for undocumented
 physical and occupational therapy that was provided for a       $331 million                   **
 12-month period ending June 30, 1998
 Amount Medicare reimbursed SNFs for mark-up of
                                                                 $29 million        $7 million - $51 million
 occupational therapy that was provided during March 1998
 Amount Medicare reimbursed SNFs for mark-up of
 occupational therapy that was provided for a 12-month period    $342 million                   **
 ending March 31, 1998
                                                                  Source: Office of Evaluation and Inspections, 1999

**NOTE:	 These estimated projections from March 1998 to a 12-month period are based on the assumption
         that March 1998 is a typical month. We tested this assumption by examining SNF Medicare
         charges for physical and occupational therapy. For example, the SNFs submitted $685 million in
         physical and occupational therapy charges during March 1998 and $7.85 billion during the 12
         months ending March 31, 1998. This ratio ($685 million/$7.85 billion) is approximately equivalent
         to the ratio (31/365) that we used in projecting to a 12-month period. Because our sample was
         limited to March 1998, we are unable to calculate 95 percent confidence intervals for these 12-
         month estimates.




  Cost of Improperly Billed Physical/Occupational Therapy   16                            OEI-09-97-00122
                                                               APPENDIX C

                                            Agency Comments





Cost of Improperly Billed Physical/Occupational Therapy   17        OEI-09-97-00122
                                                               APPENDIX C




Cost of Improperly Billed Physical/Occupational Therapy   18        OEI-09-97-00122
                                                               APPENDIX C




Cost of Improperly Billed Physical/Occupational Therapy   19        OEI-09-97-00122
